OIG Audit Report GR-30-98-008
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Greenbrier County, West Virginia Sheriff's Department
 
GR-30-98-008
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Greenbrier County, West Virginia Sheriffs
Department (Department). The Department received a grant of $55,061 to hire 1 additional
sworn police officer under the Funding Accelerated for Smaller Towns (FAST) program;
$121,368 to hire 2 additional officers under the Universal Hiring Program (UHP); and
$44,064 to hire 1 civilian and redeploy 1 officer under the Making Officer Redeployment
Effective (MORE) program. The purpose of the additional officers is to enhance community
policing efforts.

We found that the Department violated grant requirements as follows:



The Department based requests for reimbursement on budgeted rather than
      actual costs.




Budgeted funds for police services increased each year from 1992 through
      1997, remained steady in 1998, but fell in 1999. The number of county-funded officers
      budgeted decreased by one in 1997, the year after the FAST officer was added to the
      budget.




The Department did not appear to be making a good faith effort to fill
      officer vacancies timely. As a result, we question $8,993 in costs for the FAST officer
      employed during the time of vacancy.




We found no appropriations or other documentation to identify the source
      of local matching funds.




The Department had terminated the officers hired under the UHP program,
      and did not provide us with any evidence of a plan or efforts to retain them. As such, we
      question $11,001 in costs to the federal government of the UHP officers, and recommend
      that $110,367 in funds be put to better use.




The Department had no formal plan to retain the FAST officer or the MORE
      civilian. As a result, we recommend withholding funds remaining under these programs until
      a plan is developed.




The Department Initial Report was submitted to COPS as a result of audit
      fieldwork, but it was 496 days late. The Department did not submit Officer Progress
      Reports for the UHP officers.




Financial Status Reports did not accurately report total program costs or
      the federal share of program costs. In addition, 5 of 18 reports were submitted untimely.




Community policing activities consisted of routine law enforcement duties.
      This was a deviation from the activities stated in the FAST grant application.


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in APPENDIX II.
#####